     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                          Room 2425
                                                                          Boston, MA 02203
                                                                          (617) 565-2684
July 11, 2011

Report Number: A-01-10-00530
Lynn Shields, RN, BSN, MBA
Director of Clinical and Research Compliance
Cape Cod Healthcare, Inc.
17 East Main Street
West Yarmouth, MA 02673

Dear Ms. Shields:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of Cape Cod Hospital for
Calendar Years 2008 and 2009. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Kimberly Rapoza, Audit Manager, at (617) 565-2695 or through email at
Kimberly.Rapoza@oig.hhs.gov. Please refer to report number A-01-10-00530 in all
correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                             for Audit Services

Enclosure
Page 2 – Ms. Lynn Shields


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




MEDICARE COMPLIANCE REVIEW OF
CAPE COD HOSPITAL FOR CALENDAR
      YEARS 2008 AND 2009




                        Daniel R. Levinson
                         Inspector General

                             July 2011
                            A-01-10-00530
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the prospective payment system for inpatient hospital
services (IPPS). Under the IPPS, CMS pays hospital costs at predetermined rates for patient
discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

Cape Cod Hospital (the Hospital) is a 259-bed acute care hospital located in Hyannis,
Massachusetts. Medicare paid the Hospital approximately $253 million for 18,792 inpatient and
446,326 outpatient claims for services provided to beneficiaries during calendar years (CYs)
2008 and 2009 based on CMS’s National Claims History data.

Our audit covered $4,422,130 in Medicare payments to the Hospital for 157 inpatient and 225
outpatient claims that we identified as potentially at risk for billing errors. These 382 claims had
dates of service in CYs 2008 and 2009.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 178 of the 382 claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for

                                                 i
selected inpatient and outpatient claims. Specifically, of the 382 claims, 204 claims had errors,
resulting in overpayments totaling $379,182 for CYs 2008 and 2009. Overpayments occurred
primarily because the Hospital did not have adequate controls to prevent incorrect billing of
Medicare claims and did not fully understand the Medicare billing requirements.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $379,182, consisting of $310,936 in overpayments for
       68 incorrectly billed inpatient claims and $68,246 in overpayments for 136 incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

CAPE COD HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our recommendations. The
Hospital stated that it has refunded overpayments to the Medicare contractor. In addition, the
Hospital stated that it has strengthened controls to comply with Medicare requirements. The
Hospital’s comments are included in their entirety as the appendix.




                                                ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ..........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         Cape Cod Hospital. ........................................................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................4

FINDINGS AND RECOMMENDATIONS ..............................................................................5

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................6
          Inpatient Short Stays ......................................................................................................6
          Inpatient Same-Day Discharges and Readmissions .......................................................6
          Inpatient Claims Paid in Excess of Charges ..................................................................7

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................7
          Outpatient Intensity Modulated Radiation Therapy Planning Services .........................7
          Outpatient Claims Billed With Modifier -59 .................................................................7
          Outpatient Claims Billed During an Inpatient Stay .......................................................8
          Outpatient Evaluation and Management Services Billed With
                Surgical Services .................................................................................................8
          Outpatient Claims Paid in Excess of Charges................................................................8
          Outpatient Manufacturer Credits for Replaced Medical Devices ..................................9

      RECOMMENDATIONS .....................................................................................................10

      CAPE COD HOSPITAL COMMENTS ..............................................................................10

APPENDIX

          CAPE COD HOSPITAL COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the prospective payment system (IPPS) for inpatient
hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for patient
discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 2 The OPPS is effective for services furnished on or after August
1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-service
basis that varies according to the assigned ambulatory payment classification (APC). CMS uses
Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to identify and
group the services within each APC group. 3 All services and items within an APC group are
comparable clinically and require comparable resources.


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
requires CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.
2
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
3
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                         1
Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. The types of payments to hospitals reviewed by this and related audits
included payments for claims billed for:

    •   inpatient short stays,

    •   inpatient same-day discharges and readmissions,

    •   inpatient claims with payments greater than $150,000,

    •   inpatient hospital-acquired conditions and present on admission indicator reporting,

    •   outpatient claims for intensity modulated radiation therapy planning services,

    •   outpatient claims billed with modifier -59,

    •   outpatient claims billed during an inpatient stay,

    •   outpatient claims for evaluation and management services billed with surgical services,

    •   outpatient claims involving manufacturer credits for replaced medical devices, and

    •   inpatient and outpatient claims paid in excess of charges.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for diagnosing or treating illness or injury or for
improving the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.



                                                   2
The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

Cape Cod Hospital

Cape Cod Hospital (the Hospital) is a 259-bed acute care hospital located in Hyannis,
Massachusetts. Medicare paid the Hospital approximately $253 million for 18,792 inpatient and
446,326 outpatient claims for services provided to beneficiaries during calendar years (CYs)
2008 and 2009 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $4,422,130 in Medicare payments to the Hospital for 157 inpatient and 225
outpatient claims that we identified as potentially at risk for billing errors. These 382 claims had
dates of service in CYs 2008 and 2009.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We based our review on selected billing requirements and did
not include a focused medical review to determine whether the services were medically
necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review enabled us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital during January and February 2011.




                                                 3
Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
       Claims History file for CYs 2008 and 2009;

   •   obtained information on known credits for replacement cardiac medical devices from the
       device manufacturers for CYs 2008 and 2009;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected a judgmental sample of 382 claims (157 inpatient and 225 outpatient) for
       detailed review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                4
                         FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 178 of the 382 claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for
selected inpatient and outpatient claims. Specifically, of 382 sampled claims, 204 claims had
billing errors that resulted in overpayments totaling $379,182 for CYs 2008 and 2009.
Overpayments occurred primarily because the Hospital did not have adequate controls to prevent
incorrect billing of Medicare claims and did not fully understand the Medicare billing
requirements.

Of 157 sampled inpatient claims, 68 claims had billing errors, resulting in overpayments totaling
$310,936 (10 claims had 2 types of errors).

   •   For inpatient claims with short stays, the Hospital incorrectly billed Medicare Part A for
       beneficiary stays that should have been billed as outpatient or outpatient with observation
       services (52 errors). Additionally, 10 of these 52 claims did not have valid physician
       orders to admit beneficiaries for inpatient care (52 errors totaling $221,682).

   •   For inpatient claims with same-day discharges and readmissions, the Hospital billed
       Medicare separately for related discharges and readmissions within the same day
       (11 errors totaling $50,149 in overpayments).

   •   For inpatient claims paid in excess of charges, the Hospital billed Medicare with an
       incorrect DRG (five errors totaling $39,105 in overpayments).

Of 225 sampled outpatient claims, 136 claims had billing errors, resulting in overpayments
totaling $68,246.

   •   For outpatient claims billed for intensity modulated radiation therapy planning services,
       the Hospital incorrectly billed Medicare for services that were performed as part of
       developing an intensity modulated radiation therapy plan (76 errors totaling $18,007 in
       overpayments).

   •   For outpatient claims billed with modifier -59, the Hospital incorrectly billed Medicare
       for HCPCS codes that did not require modifier -59 (31 errors), were included in the
       payments for other services that were billed on the same claims (4 errors), or contained
       incorrect HCPCS codes (3 errors) (38 errors totaling $2,220 in overpayments).

   •   For outpatient claims billed during an inpatient stay, the Hospital incorrectly billed
       Medicare Part B for outpatient services provided during inpatient stays that should have
       been included on the Hospital’s inpatient (Part A) bills to Medicare (eight errors totaling
       $2,681 in overpayments).

   •   For outpatient evaluation and management service claims billed with surgical services,
       the Hospital incorrectly billed Medicare for services that were performed as part of
       developing an intensity modulated radiation therapy plan (five errors) or were

                                                5
       insufficiently documented in the medical records (two errors)(seven errors totaling
       $2,109 in overpayments).

   •   For outpatient claims paid in excess of charges, the Hospital submitted claims to
       Medicare with incorrect HCPCS codes (four errors totaling $3,164 in overpayments).

   •   For outpatient claims involving manufacturer credits for replaced medical devices, the
       Hospital either did not obtain credits for replaced devices that were available under the
       terms of the manufacturers’ warranties (two errors), or the Hospital received full credit
       for a replaced device but did not report the “FB” modifier or reduced charges on its claim
       (one error) (three errors totaling $40,065 in overpayments).

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 68 of the 157 sampled inpatient claims that we
reviewed. These errors resulted in overpayments totaling $310,936 (10 claims had 2 types of
errors).

Inpatient Short Stays

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for diagnosing or treating illness or injury or for
improving the functioning of a malformed body member.” Section 1814(a)(3) of the Act states
that payment for services furnished to an individual may be made only to providers of services
that are eligible and only if, “with respect to inpatient hospital services ... which are furnished
over a period of time, a physician certifies that such services are required to be given on an
inpatient basis for such individual’s medical treatment ….”

For 52 of the 71 sampled claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services.
Additionally, 10 of these 52 claims did not have valid physician orders to admit beneficiaries for
inpatient care. The Hospital attributed the patient admission errors to inadequate internal
controls over its Case Management Department’s processes and procedures. Specifically, case
management review did not always occur due to the short nature of patient stays. The Hospital
stated that human error caused the incomplete or missing physician orders. As a result, the
Hospital received overpayments totaling $221,682.

Inpatient Same-Day Discharges and Readmissions

The Manual, chapter 3, section 40.2.5, states:

       When a patient is discharged/transferred from an acute care Prospective Payment System
       (PPS) hospital and is readmitted to the same acute care PPS hospital on the same day for
       symptoms related to, or for evaluation and management of, the prior stay’s medical
       condition, hospitals shall adjust the original claim generated by the original stay by
       combining the original and subsequent stay on a single claim.


                                                 6
For 11 of the 25 sampled claims, the Hospital billed Medicare separately for related discharges
and readmissions within the same day. The Hospital stated that the errors occurred because an
existing protocol for combining same-day readmissions was not followed. As a result, the
Hospital received overpayments totaling $50,149.

Inpatient Claims Paid in Excess of Charges

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for diagnosing or treating illness or injury or for
improving the functioning of a malformed body member.”

For 5 of the 48 sampled claims, the Hospital billed Medicare for incorrect DRG codes. The
Hospital stated that the errors occurred because of human error. As a result, the Hospital
received overpayments totaling $39,105.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 136 of 225 sampled outpatient claims, which
resulted in overpayments totaling $68,246.

Outpatient Intensity Modulated Radiation Therapy Planning Services

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.” In addition, chapter 4, section 200.3.2, requires
that certain services should not be billed when they are performed as part of developing an
intensity modulated radiation therapy plan.

For 76 of the 139 sampled claims, the Hospital incorrectly billed Medicare for services that were
performed as part of developing an intensity modulated radiation therapy plan. These errors
occurred because Hospital personnel were unaware or did not fully understand the intensity
modulated radiation therapy billing requirements, and consequently they did not have controls in
place to prevent incorrect intensity modulated radiation therapy coding. As a result, the Hospital
received overpayments totaling $18,007.

Outpatient Claims Billed With Modifier -59

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.” In addition, chapter 23, section 20.9.1.1, states:
“The ‘59’ modifier is used to indicate a distinct procedural service .... This may represent a
different session or patient encounter, different procedure or surgery, different site, or organ
system, separate incision/excision, or separate injury (or area of injury in extensive injuries).”

For 38 of the 43 sampled claims, the Hospital incorrectly billed Medicare for HCPCS codes that
did not require modifier -59 (31 errors), were included in payments for other services billed on
the same claim (4 errors), or contained incorrect HCPCS codes (3 errors). These errors occurred



                                                 7
primarily because one Hospital staff member misunderstood the billing requirements for
modifier -59. As a result, the Hospital received overpayments totaling $2,220.

Outpatient Claims Billed During an Inpatient Stay

The Manual, chapter 3, section 10.4, states that Part A covers certain items and nonphysician
services furnished to inpatients and consequently the inpatient prospective payment rate covers
these services.

For eight of the eight sampled claims, the Hospital incorrectly billed Medicare Part B for
outpatient services provided during inpatient stays that should have been included on the
Hospital’s inpatient (Part A) bills to Medicare. The claims billed in error were for radiation
therapy. The Hospital stated that these errors occurred because of human error in transferring
charges to the inpatient bill. As a result, the Hospital received overpayments totaling $2,681.

Outpatient Evaluation and Management Services Billed With Surgical Services

Section 1833(e) of the Social Security Act (the Act) precludes payment to any provider of
services or other person without information necessary to determine the amount due the provider.
The Manual, chapter 1, section 80.3.2.2, requires that claims be completed accurately to be
processed correctly and promptly. In addition, chapter 4, section 200.3.2, requires that certain
services should not be billed when they are performed as part of developing an intensity
modulated radiation therapy plan.

For 7 of the 13 sampled claims, the Hospital incorrectly billed Medicare for services that were
performed as part of developing an intensity modulated radiation therapy plan (5 errors) or were
insufficiently documented in the medical records (2 errors). These errors occurred because
Hospital personnel were either unaware of or misunderstood certain billing requirements. As a
result, the Hospital received overpayments totaling $2,109.

Outpatient Claims Paid in Excess of Charges

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. Additionally, the Manual,
chapter 1, section 80.3.2.2, requires providers to complete claims accurately so that Medicare
contractors may process them correctly and promptly.

For four of the eight sampled claims, the Hospital submitted claims to Medicare with incorrect
HCPCS codes. The Hospital stated that these overpayments occurred because of human error
and computer software controls that were not fully implemented. As a result, the Hospital
received overpayments totaling $3,164.




                                                8
Outpatient Manufacturer Credits for Replaced Medical Devices

Federal regulations (42 CFR § 419.45) require a reduction in the outpatient prospective payment
system payment for the replacement of an implanted device if (1) the device is replaced without
cost to the provider or the beneficiary, (2) the provider receives full credit for the cost of the
replaced device, or (3) the provider receives partial credit equal to or greater than 50 percent of
the cost of the replacement device.

Prudent Buyer Principle

Under 42 CFR § 413.9, “All payments to providers of services must be based on the reasonable
cost of services ….” CMS’s Provider Reimbursement Manual, part 1, section 2102.1, states,
“Implicit in the intention that actual costs be paid to the extent they are reasonable is the
expectation that the provider seeks to minimize its costs and that its actual costs do not exceed
what a prudent and cost conscious buyer pays for a given item or service. If costs are determined
to exceed the level that such buyers incur, in the absence of clear evidence that the higher costs
were unavoidable, the excess costs are not reimbursable under the program.” Section 2103 of
the Provider Reimbursement Manual states that Medicare providers are expected to pursue free
replacements or reduced charges under warranties. Section 2103(C)(4) provides the following
example:

       Provider B purchases cardiac pacemakers or their components for use in replacing
       malfunctioning or obsolete equipment, without asking the supplier/manufacturer for full
       or partial credits available under the terms of the warranty covering the replaced
       equipment. The credits or payments that could have been obtained must be reflected as a
       reduction of the cost of the equipment.

Billing Requirements for Medical Device Credits

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual explain how a
provider should report no-cost and reduced-cost devices under the OPPS. For services furnished
on or after January 1, 2007, CMS requires the provider to report the modifier “FB” and reduced
charges on a claim that includes a procedure code for the insertion of a replacement device if the
provider incurs no cost or receives full credit for the replaced device.

For 3 of the 14 sampled claims, the Hospital either did not obtain credits for replaced devices
that were available under the terms of the manufacturers’ warranties (2 errors) or the Hospital
received full credit for a replaced device but did not report the “FB” modifier or reduced charges
on its claim (1 error). The Hospital stated that these overpayments occurred because there were
no controls to identify, obtain, and report credits from the device manufacturers. As a result of
these errors, the Hospital received overpayments totaling $40,065.




                                                 9
RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $379,182, consisting of $310,936 in overpayments for
       68 incorrectly billed inpatient claims and $68,246 in overpayments for 136 incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

CAPE COD COMMENTS

In written comments on our draft report, the Hospital concurred with our recommendations. The
Hospital stated that it has refunded overpayments to the Medicare contractor. In addition, the
Hospital stated that it has strengthened controls to comply with Medicare requirements. The
Hospital’s comments are included in their entirety as the appendix.




                                              10
APPENDIX
                                                                                         Page 1 of3
~'.I'~
~ • ~                  CAPE COD HEALTHCARE
41'..,. ........ 

                               APPENDIX: CAPE COD HOSPITAL COMMENTS




          June 23, 2011

          BY FEDERAL EXPRESS
          Mr. Michael J. Armstrong 

          Regional Inspector General for Audit Services 

          Department of Health & Human Services 

          Office of Inspector General, Office of Audit Services, Region I 

          John F. Kennedy Federal Building, room 2425 

          Boston, MA 02203 


                     Re:   #A-01-10-00530

          Dear Mr. Armstrong:

                Cape Cod Hospital (the "Hospital") has received a draft report from the
         Department of Health & Human Services, Office of Inspector General ("OIG") entitled,
         Medicare Compliance Review of Cape Cod Hospital for Calendar Years 2008 and 2009
         (the "Report"). The Hospital has had an opportunity to review the Report and is in
         general agreement with the stated findings .

                As you know, the OIG originally selected for review certain inpatient and
         outpatient claims submitted by the Hospital for dates of service in calendar years 2008
         and 2009, ultimately covering ten (10) audit areas. In all, 157 inpatient claims and 225
         outpatient claims were reviewed and, as set forth in the Report, your auditors identified
         problems with 68 inpatient and 136 outpatient claims. Based on their work, the auditors
         concluded that the Hospital had received $379,182 in overpayments.

                 Prior to this audit, the Hospital had regularly conducted audits focused on DRG
         coding and the appropriate submission of claims by both its internal staff and by
         Hospital contracted experts. The Hospital continues to conduct such audits, and will
         continue to do so in the future, as an integral component of its Corporate Compliance
         Program. Additionally, the Hospital has provided, and will continue to provide ongoing
         training for its.coders, patient accounts staff and associated personnel. We also will
         continue to utilize outside experts to verify our coding and billing practices to provide
         further assurance that we remain in compliance with all applicable legal requirements.

               The Hospital also regularly conducts coding and compliance education sessions
         across key clinical and operational departments. To strengthen those efforts and to
                                                                                  Page 2 of3



 address certain issues raised during the audit, the Hospital has implemented several
 measures, including the following:

        • 	 Provided education to the one certified coder who apparently was not utilizing
            Modifier 59 appropriately;

        • 	 Provided education to staff in certain outpatient areas about the identified
            errors pertaining to selecting charges that are appropriate for the service
            rendered. In limited cases these staff members were not aware that a charge
            included the insertion and removal of specific intravenous materials and, in
            other cases, incorrectly believed that Evaluation and Management (E&M)
            charges were to be used;

        • 	 Established a new process across the Hospital's clinical and financial
            operations to more effectively communicate decisions about the complicated
            (and often confusing) relationship between a patient's discharge and then
            readmission on the same day when the symptoms on readmission are related
            to or for evaluation and management of the patient's medical condition at the
            time of his/her original discharge from the Hospital; and

        • 	 Changed certain internal administrative processes to make sure there are
            appropriate written physician orders and correctly completed claims
            pertaining to certain Neurosurgical procedures for which Medicare requires
            the patient to be admitted to the Hospital as an inpatient prior to the surgery.

         Notably, the vast majority of inpatient claim errors identified on audit were
 attributed to incorrect claims for one day stays. The Hospital had identified this issue as
 a potential problem area prior to the audit and, as part of its Corporate Compliance
 Program, had already begun to implement measures to improve existing internal
 processes to assure the correct classification of these patients as either inpatients or
 outpatients. A root cause analysis of existing processes revealed that weekend days
 and holidays were time periods when the review process was insufficient.
 Consequently, the Hospital has recently increased the number of staff in its Case
 Management Department in order to facilitate the review of all cases where an
 admission is being contemplated.

         The majority of the outpatient claims errors identified were attributed to the use of
. various codes during the planning phases of Intensity Modulated Radiation Therapy
  ("IMRT") which may not be used when a comprehensive planning code is used. The
  Hospital utilizes coding software to identify situations where specific codes may not be
  used together, but that software had not been used on recurring accounts because
  there would have been unacceptably long delays while the software reviewed several
  months of oncology-related charges. In addition it was discovered after the audit that
  the software is not sophisticated enough to adequately identify the difference between
  the planning phase and the treatment phase of this important clinical service. However,
  the Hospital has now implemented alternative internal controls whereby the Radiation
                                                                              Page 3 of3


Therapist is able to readily identify and then edit those charges that may not be used in
combination on Medicare claims, despite being allowed by other payers. Due to the
clinical complexity of IMRT planning, the Hospital believes its Radiation Therapists are
best situated to make these determinations because the identification of the "end" of the
"planning phase" for each patient is a highly technical decision .

        With respect to the outpatient manufacturer credits for medical devices, the
Hospital historically relied on device vendors to determine appropriate warranty
payments due to the Hospital. With respect to the fourteen (14) claims reviewed, it was
agreed that during a twenty-two (22) month time frame there was a failure to identify
only three (3) devices that may have been covered under warranty. In response to this
audit, the Hospital has established enhanced internal controls which include a review by
Hospital staff to determine the availability of a warranty in cases where the Hospital
performed the procedure for both the original device and then a replacement device.
The Hospital has met with vendor representatives and reviewed these new internal
controls. Vendors are now required to notify the Hospital at the time of the procedure
that the device may be covered under warranty. In addition, for cases where the
Hospital provides both the initial implant and then a replacement, the Hospital has
established a new tracking system to help monitor receipt of vendor responses. The
Hospital also has established a new procedure to make sure that the correct value
codes, condition codes and modifiers are included on any claim when a credit has been
received.

        All in, the auditors recommended that the Hospital refund to its Medicare
contractor $379,182, consisting of $310,936 in overpayments for the 68 incorrectly
billed inpatient claims, and $68,246 in overpayments for the 136 incorrectly billed
outpatient claims. The auditors also recommended that the Hospital strengthen its
controls to ensure full compliance with Medicare requirements. The Hospital has
processed the recommended refunds and, to the extent permitted by Medicare rules,
has completed rebilling claims as appropriate. In addition and as outlined above, the
Hospital has implemented stronger internal controls aimed at reducing the risk that
these types of errors will recur.

       The Hospital takes its compliance obligations very seriously and will continue to
monitor all of the audited areas as part of its Compliance Program and will update its
controls when identified as necessary to ensure continued compliance with applicable
legal requirements. Please feel free to call me if you have any questions about the
Hospital's efforts in this regard or if you require any additional information.

Very truly yours,


~U 'r-"---
Michael G. Jones
Compliance Officer
